No; 20-6981
In the United States

Phillip J. Waltefr

Supreme Court

V.

Washington, D.C.

State of Texas
Motion for Rehearing.

Now comes, Phillip J. Walter, TDC# 02099080, incarcerated at Connally Unit, at 899 FM
632, Kenedy, Tx 78119, now known as PJW, Moves this court to Grant this Motion for Rehearing, &, as the petitioner in the instant cause, he prays to show the court as follows:
Procedure
Pursuant to S.Ct.R. 44(2), the instant Motion for Rehearing is made.
Procedural History
On 01/11/2021, PJW filed a Certificate of Certioarai, with this Court.
On 03/29/2021, The Court denied a review of Said Petition.
P$1 is thereby Required to file the instant Motion by No-Later than 04/22/2021.
S.Ct.R. 44(2),-Required Statement
PJW, asserts, that the instant Motion is "Presented in good faith & not for delay", due
to the absolute need of PJW for this Court to promptyly Intervene in his Unjust incarceration.
Issues/Grounds/Questions-relied-upon
Denial of a Meaningful Direct Appeal, &
Denial of the Effective Assistance of Appellate Counsel Guranteed on Appeal.
Argument
PJW, contends, he has sufficiently presented the grounds & reasons needed for this Court to be put on Notice & made aware of the importance of the Petitioner's Application to
this Court. See Pgs 6-13 of Petition.
However, PJW requests this Court to reconsider its denial of a review. The Reasons for
such a reconsideration are as follows:
1) This Court ig'already fully aware of the wholly deficient procedures outlined in
the Texas Appellate process. See Martinez v. Ryan, 566 U.S. 1, 132 S.Ct 1309 (20Pg 1

12); Trevino v. Thaler, 133 S.Ct 1911 (2013 U.S.Lexis. 3980(2013)).
This Court has concluded that an Appellant is Guranteed a meaningful Direct
Appeal (If offered) as well as the Right to the Effective Assistance of Counsel
on said Appeal. See Evitts v. Lucey, 105 S.Ct 830 (1985).
In 2016, a Justice of the highest Court on Criminal matters, the Court of Criminal Appeals, admonished his own Court & concluded that the procedures employed
by the State of Texas (& complained of by this Court: Martinex Supra; Thaler
Supra) is liBroken." Griffth v. State, 507 S.W.3d 720 (Tex.Crim.App.2016), thus
it has been undisputably established that the Appellate procedures employed by
the state of Texas are preventing @PI, the compliance with liucey Supra.
This Court has been handed a once in a lifetime opportunity to address these
issues, instead of only being allowed to complain about them.
A refusal to consider & resolve the issues presented in PJW's petition, now,
means precious Judicial resources will have to be wasted on issues that affect
Appellants across the entirety of the United Sates of America. Issues that, if
only considered & addressed at State or Federal level, will continue to go
unaddressed for Appellants outside of the 5th Circuit.
Conclusion
PJW, asserts that, by denying the instant Certificate of Certiorari, this Court will
have effectively abandoned its sole duty & purpose for hearing & considering State causes:
To insure the State Courts are abiding by its decisions & in compliance with the U.S.
Constitution.
PJEll hereby• requests this Court to reconsider/rehear his application/petition for a
Certificate of Certiorari.
Prayer
I Pray, that this Court Grants a Full review of P3O's Petition for Certificate of
Certiorari.

Pg 2

LIST OF PARTIES

/All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Trial Court: 42nd District Court, Callahan County, Tx, Cause # 7138,
Appellate Court: 11th District, Eastland Tx, Cause # 11-16-00338-CR
Court of Criminal Appeals: Petition for Discretionary Review, Cause # PD-0130-20

IV

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

13

INDEX TO APPENDICES

APPENDIX A Opinion ❑f 11th District Court ❑f Appeals

APPENDIX B Trial Court's order convicting Appellant
APPENDIX C Order denying review of_Petition of Discretionary Review
APPENDIX D Order denying Mot ion for Rehearing of PDR
APPENDIX E Extension to file Certificate of Certiorari

APPENDIX F CCP. Art . 31.01. Change of Venue...On Court's Own Motion.
Appendix G Order denying motinn for rehearing
Appendix H Relevant portions of the Court's records
Appendix I Full printout of case "Griffith v. State, 507 S.W.3d'720
Appendix O Full'printout of case "Ex parte Garcia, 406 S'.W.3d 565

Index of Authorities
What

Where

Strickland v. Washington, 104 S.Ct 2052 (1984)

3 3

Evitts v. Lucey, 105 S.Ct 830 (1985)

3, 6, 7, 9

Irvin v. Dowd, 81 S.Ct 1639 (1961)

3

U.S. v. Pajooh, 143 F.3d 203 (C.A.5(Tex) 1998)

3

U.S. v. Fastow, 292 F.Supp.2d 914 (S.D.Tex 2003)

3

Brimage v. State, 918 S.W.2d 466 (Tex.Crim.App. 1996)

4, 10

Bonilla v. State, 933 S.W.2d 538 (App.1 Dist 1995)

5, 12

U.S. v. Cronic, 104 S.Ct 2039 (1984)

6

Avery v. Alabama, 308 U.S. 444, 60 S.Ct 321

6

Martinez v. Ryan, 566 U.S 1, 132 S.Ct 1309 (2012)

6, 7

Griffith v. State, 507 S.W.3d 720 (Tex.Crim.App. 2016)

6, 7

Ex parte Garcia, 486 S.W.3d 565 (Tex.Crim.App 2016)

7

Cooks v. State, 240 S.W.3d 906 (Tex.Crim.App. 2007)

7

Trvino v. Thaler, 133 S.Ct 1911 (2013 U.S. Lexis 3980(2013)

7, 8

Robinson v. State, 16 S.W.3d 808 (Tex.Crim.App. 2000)

8

Chambers v. Florida, 309 U.S. 227 (1940)

9

Lewis v. State, 654 S.W2d 483 (Tex.App-Tyler 1983)

9

Connecticut v. Johnson, 460 U.S. 73, 103 S.Ct 969 (1983)

9

vaughn v, State, 833 S.W.2d 180 (Tex.App.Dallas 1992)

9

Anderson v. State, 633 S.W.2d 851 (Tex.Crim.App. 1982)

9

Yee v. Escondido, 112 S.Ct 1522, 503 U.S. 519 (1992)

10

Illinois v. Gate, 462 U.S. 213, 103 S.Ct 2317 (1983)

10

Walter v. State, 209 S.W.3d 722 (Tex.App.-Tei<arkana 2006)

11

Bath v. State, 951 S.W.2d 11 (Tex.App. Corpus Christi 1997)

11

Aranda v. State, 738 S.W.2d 702 (Tex.Crim.App. 1987)

11

Cook v. State, 667 S.W.2d 520 (Tex.Crim.App. 1984

11

Wentworth v Meyer, 839 S.W.2d 766 (Tex. 1992)

12

Pfifer v. Apprasial District, 45 S.W.3d 159 (Tex.App.-Tyler 2000)

12

Perkins v. State, 905 S.W.2d 452 (App. 8 Dist 1995)

12

Rochell v. State, 256 S.W.3d 315 (2008 Tex.App.Lexis 4073)

121F

Hughes v. State, 878 S.W.2d 142 (Tex.Crim.App 1990)

12

Boyle v. State, 820 S.W.2d 122 (Tex.Crim.App. 1991)

12

VI

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[4 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
Me is unpublished.
court
The opinion of the 11th District Court of Appeals
appears at Appendix A
to the petition and is
; or,
[ ] reported at
NI has been designated for publication but is not yet reported; or,
is unpublished.
1.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date•
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. *1254(1).

[vi For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix

05/06/2020

Ni A timely petition for rehearing was thereafter denied on the following date:
08/19/2020
, and a copy of the order denying rehearing
appears at Appendix
NI An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on 03/19/2020
to and including 01/16/ 2020
A
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
6Th Admendment
The Effective Assistance ❑f Trial Counsel (Strickland v. Washington, 104 S.ct 2052 (1984)
The Effective Assistance of Appellate Counsel (Evitts v. Lucey, 105 S.ct 830 (1985)
5Th Admendment
Right to a Fair Trial (Irvin v. Dowd, 81 S.ct 1639 (1961)
Right to a meaningful Direct Appeal (U.S v. Pajooh, 143 F.3d 203 (C.A.5(Tex) 1998)

Statutory Provisions
Vernons Texas Code, CCP, Art 31.01 ("Venue change...on the court's motion")—See Appendix for full citation.

STATEMENT OF THE CASE
Though not presented in question format—presented as issues/complaints—the questions
presented, in the instant petition, were presented & considered/denied by the lower State
Court's in the following manners:
Questions 1,2,3,10: Presented in a motion for rehearing, at ground 3, on Direct Appeal. Court Affirmed.
> Presented in a Petition for Discretionary Review (PDR) & Rehearing of the same, at grounds: "3,4, &5" & "4 & 5". respectively.
Court denied review.
Question 4: Presented in the same manner of questions "1,2 & 3, & also at ground 4
of Admendment of motion for rehearing of Direct Appeal. Court Affirmed.
Question 5: Presented in a motion for rehearing, at ground 3, on Direct Appeal. Court
Affirmed.
Questions 6 & 7: Presented in motion for rehearing, at ground 2, on Direct Appeal.
Court Affirmed.
> Presented in a PDR, at ground 2. Court denied review.
Questions 8 & 9: Presented in a motion for rehearing, at ground 1, on Direct Appeal.
> Presented in a PDR, at ground 1. Court denied review.
Pursuant to Sup.Crt.Rule 14(g)(i), the questions presented herein, are properly before the
Court.
Statement
The instant "Statement of The Case", shall focus primarily on the questions presented,
though, per Appendix A "Opinion of 11th District Court of Appeals" pp. 2-5, further—though
contested—"Background Facts", or information, may be located.
PJW, alleges, that, during his Voir Dire jury selection, mare than sufficient evidence
was presented, by his own counsel & multiple members of the panel, that, "Evidence of inflamitory, prejudicial Pre-Trial publicity that so saturate[dl the community as to render it
virtually impossible a fair trial by an impartial jury drawn from ithe community" U.S. v.
Fastow, 292 F.Supp.2d 914 (S.D.Tex 2003), was present. However, though PJW's counsel clearly knew of such prejudices (See RR2/172:15-18;93-94:18-20,22;137-138:12-14,16-18,21) he
still refused to even attempt a venue change) however, though clearly authorized by CCP.Art. 31.01 (See APP. F), t❑ ❑rder a change ❑f venue on it's own motion, the Trial Court failed t❑ d❑ as such, though the evidence was clear & undisputable. Brimage v. State, 918 S.W.
2d 466 (Tex.Crim.App 1996). Therefore, though sufficient evidence that implicated another
party having committed the murder was presented (Reasonable doubt) retribution was needed
& PJW was made the sacrificial lamb. Emotions ran high & he was denied a fair trial.
4

Statement Cont'd
Further, during, '& shortly thereafter, said Voir Dire, panel members: Poole & Jared Loper, informed PJW's Trial Counsel, the State, & the Trial Court, that they were decidedly
impartial (See RR2/94: 1-3, 6-7; 148:13) because the victim was a police officer (Mr. Poole) & that, because he knew the family & that because the family member was in the courtroom
, which made him feel totally uncomfortable, he felt he couldn't possibly be fair & impartial (See RR2/164:'1-3, 7-8) (Mr. Loper), however, both were selected & forced—against Mr.
Loper's wishes—to serve ❑ n the jury.
Though PJW was appointed counsel (His same Trial Counsel) on Direct Appeal, this attorney, Jeffrey A. Propst, failed to raise multiple valid, substantial issues:
Trial Counsel's failure to challenge for cause multiple potential jurors,
Trial Counsel's failure to move for a venue change,
The Trial Court's failure to move for a venue change on it's own motion,
The unresonably deficient Appellate procedures, &
The unresaonably deficient Motion for a New Trial procedures.
to list but a few.
Instead, said counsel raised but a single, meritless issue: Improper law of parties
instructions. (See App. A. pp.5)
However, having been affirmed by the Appellate Court, PJW was allowed to obtain his Appellate records & to conduct his own legal research & investigation, thereby, he found substantial evidence that he'd been denied a fair trial. The failure of PJW's Appellate Counsel to discover & to raise such grounds/issues, effectively denied him the opportunity to have them heard by the court in the first instance; initial briefs.
However, because the Appellate Court's have the full discretion to hear new issues/grounds in a motion for rehearing (See Bonilla v. State, 933 S.W. 2d 538 (App.1.Dist 1995),
PJW took the initiative of filing said motion, raising:, these issues; before his Appellate
time limits expired. Even as such, though properly before the court, said court failed to
order rebriefing, thus, it cannot be concluded that the court consdidered said issues.
(See App. G).
Subsequently, having been denied said review, PJW filed for a Petition for Discretionary Review, contesting said denial & those issues, only, to be denied such a review. (See.
App. C & D).
The instant petition is therefore being filed.

5

REASONS FOR GRANTING THE PETITION
In Evitts v. Lucey, 105 S.ct 830 (1985), this court concluded & confirmed that an Appellant, on direct appeal of his conviction, was entitled to the Effective Assistance of counsel, a Federally guaranteed 6th Admendment protected right. However, unlike U.S v. Cronic,
104 S.ct 2039, 2044 (1984), where the court found that, "If no actual assistance for the accused's defense is provided, then the constitutional guarantee has been violated. T ❑ hold otherwise "Could convert the appointment of counsel into a sham & nothing more than a formal
compliance with the constitutions requirement that an accused be given the assistance ❑f counsel. The,constitutions- gurantee of assistance of counsel [cannot] be- [satisfied] by mere
formal appointment." Avery v. Alabama, 308 U.S. 444, 46, 60 S.ct 321, 22", this court has not decided whether ❑r not an Appellant's right t❑ the effective assistance of counsel, on
Direct appeal, has been realized, if the procedural scheme of the court prevents such effectiveness. See Martinez v. Ryan, 566 U.S. 1, 132 S.Ct 1309, 17-18 (2012), "explaining that the right to the effective assistance of counsel at trial is a "bedrock principle in our justice system" without which a person "cannot be assured a fair trial""(citations ommitted).
Surelyt the court would agree the same can be said about the direct appeal.
The petitioner shows the courts as follows, "For poor people, the Texas scheme for addressing claims of ineffective assistance of counsel is broken." Griffith v. State, 507 S.W.
3d 720 (Tex.Crim.App.2016), "Legal scholars know this, & the Supreme Court has essentially
acknowledged this. Instead of addressing this problem, some people will pivot & rationalize
that Texas is doing better than [they] used t❑ d❑ providing counsel for indigent defendants.
...The point is that indigent defendants in Texas ordinarily do not have a viable procedural
avenue for challenging the ineffectiveness ❑f their trial attorneys. This is a problem that
is unique to the poor in Texas because affluent people, wh❑ can afford to hire habeas counsel, have an adequate procedural avenue for challenging the ineffectiveness of trial counsel
through post conviction applications. A poor person, of course, like a rich person, can file
his habeas application...but he will almost certainly fail, because, as a pro se litigant, he

6

Reasons Cont'd
is unlikely versed in the pleading & proof requirements for obtaining habeas relief. See Ex
parte Garcia, 486 S.W.3d 565 (Tex.Crim.App 2016)(Mem. ap.)(Alcala, 0., dissenting); see also Martinez v. Ryan, 566 U.S. 1, 132 S.Ct 1309, 17-18 (2012)(observing that,"[w]ithout the
help ❑f an adequate attorney, a prisoner will have difficulities vindicating a substantial
ineffective assistance of trial counsel claim"...)...Yet, this Court continues to do nothing to fix this broken process. This Court happily sings that everything is alright, which,
of course, it is, for non-indigent habeas applicants who can afford to hire counsel....under the current construction ❑f the Texas Rules of Appellate Procedure, the thirty day deadline found in Rule 21.4 is a strict deadline, & a trial court lacks jurisdicition t❑ consider any motion-for-new-trial claim not raised prior t❑ that deadline. See Tex.R.App.P.21.4.
...A person convicted of a crime has a 6th Admendment right to effective assistance of cou•
nsel during the motion for new trial & appellate process. Cooks v. State, 240 S.W. 3d 906,
911 (Tex.Crim.App. 2007); Evitts Supra. But there is no guranteed right to appointed counsel at the post-conviction habeas stage for non-death-penalty cases. Thus, under the current
interpretation of trip 6th Admendment, the only time that a criminal defendant is guranteed
counsel & has an opportunity to litigate a claim of ineffective assistance of trial counsel
is during the motion for new trial & appellate process....On a broader level, this case...
highlight[s] the catch-22 mast indigent defendants face. Regardless ❑f whether a litigant
challenges ineffective assistance of counsel ❑n direct appeal, on the one hand, or on habeas, on the other hand, the procedural scheme he faces is designed for him to fail, unless,
of course, he can afford to hire counsel to represent him." Griffth Supra.
The Petitioner wishes to point out that, the majority of the foregoing, was a verbatim
citation ❑f Griffith Supra. The reason for such a lengthy reference was to allow this court
to understand that justices of the Court of Criminal Appeals, as well as this court, have
both blasted the harmful procedural scheme set forth in the appellate rules in Texas. See
Martinez v. Ryam, 566 U.S. 1, 132 S.Ct 1309, 1317 (2012; Trevino v. Thaler, 133 S.Ct 1911,
(2013 U.S. Lexis 3980(2013)) "The structure & design of the Texas system, in actual operat-

7

Reasons Cont'd
ion, however, makes it virtually impossible for an ineffective assistance claim to be oresentd on direct review. See Robinson v. State, 16 S.W.3d 808, 10-11 (Tex.Crim.App. 2000)"
Further, this court also concluded that, "Texas Courts ineffect have directed defendants to
raise claims of ineffective assistance of trial counsel on collateral, rather than on direct review." Trevino Supra at 1919; thus making it clear that the Texas Court's ❑f Appeals,
generally, will not consider issues ❑f ineffective assistance of trial counsel.
The instant case affords this court the opportunity to formally & finally address &
resolve this deficient procedures issue. The instant case further allows this Court to decide whether an appeal with deficient procedures designed to prevent an appellant's appellate counsel from being effevtive satisfies the appellant's 6th Admendment right to counsel,
or if such procedures would have denied that appellant such right & what the proper remedy
should be.
Though not expressed in depth herein (briefing of these issues would have to be ordered) the issues expressed to be prevented from being rcised were:
Trial Counsel's failure to move for a New Trial,
Trial Counsel's failure to move for a Bill of Exceptions,
3)Trial Counsel's failure t❑ request the Trial Court to narrow the scope of
certain admitted evidence,
Trial Counsel's failure to throughly investigate,
Trial Counsel's unreasonble deficient & unknowledgable examination/crossexamination of witnesses,&
Trial counsel's statements effectively erroded the defendant's presumption ❑f innocence right.
Bad , Contends, that, inregards to the above issue, that by the Court of Criminal
Appeal's refusal to consider the issue of deficient Appellate procedures denying an Appellant the effective assistance ❑f Appellate Counsel Guranteed by the 6th Admendment, that they havev therefore, effectively, "decided an important Federal question in a way that confl8

Reasons Cont'd
icts with relevant decisions of this court." Sup.Crt.R.10(c). See Evitts Supra; by allowing
the practice to continue, on it's watch, unabatted.
Next, this Court has found, repreatedly, that there is a, "Fundamental idea that [No]
man's life, [Liberty] or property be forfeited as criminal punishment for violation of the
law until there had been a charge fairly made & fairly tried in a public tribunial free of
[prejudice, Passion & Excitement] & Tyrannical power." Chambers v. Florida, 309 U.S. 227,
636 (1940), & that,. "Every Defendant in a criminal case is [Guaranteed] a fair trial by an
[Impartial] jury by both the Texas Constitution & by the United States Constitution.!' Lewis
v. State, 654 S.W.2d 483 (Tex.App-Tyler 1983) Further, it can be found that, "There are some Constitutional.Rights s❑ basic to a [Fair Trial] that their infraction can [Never] be treated as [Harmless] error." Connecticut v. Johnson, 460 U.S 73.74, 103 S.Ct 969 (1983); which, PJW, contends, t❑ be, "Tried in a public tribunial free of [Prejudice, Passion [&] Excitement]" Chambers Supra, is clearly one of those Rights basic to a fair trial. Johnson
Supra. Except , as will be shown, the foregoing was the very last thing wanted by the judical members charged with ensuring such Right is secured.
However, in the instant case, two potential jurors, Poole & Jared Loper, both expressed
strong reservations & inabilities to being able to preside fairly & without impartiality.
(See RR2/94:1-3, 6-7; 164:1-3, 7-8). However, inrespect to Mr. Loper, instead of dismissing
him ❑nce his clear impartiality was made known (See RR3/57:17-18."I do [NOT] believe I can
[Continue]i& be [Fair]"\ the Court decided it would be better t❑ question his integrity, wherein, Mr. Loper, in defense of said integrity, conceded, "I don'tvwant to take anymore of
yourrtime. I appologize." See RR3/64:2-3; not even remotely close to a resolution to be fair & impartial. See Vaughn v. State, 833 S.W.2d 180, 84 (Tex.App.-Dallas 1992) "Bias exist
as a matter of law when a juror [Admits] he is [Biased] for or against a defendant. Anderson v. State, 633 S.W.2d 851, 54 (Tex.Crim.App. 1982)
The foregoing issue raises the question whether the Trial Court would-be considered t❑
have abused Their discretion by deciding to go on t❑ question Mr. Loper, after he expressed

9

Reasons Cont'd
his inability to he fair & impartial (Not raised/presented herein since said issue was not
raised, specifically, in a lower state court -See.Yee v. Escondido, 112 S.Ct 1522, 31, 503
U.S 519, 33 (1992) "In reviewing judgements of State Courts under the Jurisdictional Grant
of 28 U.S.0 § 4257, the Court has, with [Very Rare Exceptional refused to consider petitioner's claims that were not raised, or addressed, below. Illinois v. Gate, 462 U.S 213, 1820, 103 S.Ct 2317, 21-23 (1983)), though Question number 8 "Has the Defendant been denied
a fair &rimihartial trial among his peers." is easily & clearly appropriate, thus, before
the Court.
However, the foregoing issue was only further aggravated where considerably more than
a Scintilla's worth of undisputed evidence was presented by, not only PJW's own Trial Counsel, but by multiple potential jururs of the Court, as well.
Substantial evidence of the foregoing maybe found firmly in the Court's records at the
following location:
> RR/172:15-18,
> RR2/93-94:1B-20,722; 1-3, 6-7,
> RR2/94-95:22-25; 13,
RR2/95-96:25; 1-6,
> RR2/97-98:16-20, 22-25; 1-2, 21-22,
RR2/99-100:12-13, 21-25; 1-5, 5-16c
RR2/101:6-7, 23-24,
> RR2/102:9-10, 12-14, 16-17,
RR2/137-138:12-14, 16-18; 21i26, 10, &
> RR2/1322136:21-25; 1-5, 6-18; 14-23; 1-2, 14-21.
However, though it has been clearly established that, "When the legislature modified
the language of Art. 560, in enacting Art 31.01 (See App. F), it's purpose was evidently
to [Require] a Court, once satisfied that a [Fair Trial] cannot be had, to...change [the]
Venue." Brimage v. State, 918 S.W.2d 466 (Tex.Crim.App 1996), which has repeatedly been re;

10

Reasons Cont'd
inforced by other Texas Court's of Appeals: Walter v. State, 209 S.W.3d 722 (Tex.App.-Texarkana 2006); Bath v. State, 951 S.W.2d 11 (Tex.App.-Corpus Christi 1997); Aranda v. State,
738 S.W.2d 702 (Tex.Crim.App 1987); Cook v. State, 667 S.W.2d 520 (Tex.Crim.App 1984, the
Trial Court, in the instant cause, failed to utilize this authority &, instead, allowed the
cause to proceed. Allowing a clearly emotional jury to be empaneled, thus denying:PM his
Right to a fair & impartial Trial.
Now, however, to date, no Court, to include the Texas Court of Criminal Appeals, norm
this Court, has thus far-addressed- Wor considered the issue of said Trial Court's failure
to utilize said discretion, once sufficient evidence was before it that such a venue change
was needed. See V:TTC.A.CCP.Art.31.01.
PM brings to the Court's attention that he acknowledged that this particular issue
possibly needed to be decided by the Court of Criminal Appeals, in his motion for Rehearing
on Direct Appeal; for which both the Appellate Court & Highest State court refused to consider the issuel leaving only this Court to decide what the proper; minimal, standard of the
Trial Court's discretion must be & how it 'should be applied when deciding whether or not to
order a change of Vehue, on his own motion.
PM, concedes, that Art. 31.01, isl infacti a State law, however, this law was enacted to
protect Federally Guaranteed Constitutional Rights to a fair trial-5th & 6th 7 14th Admendments —therefOre, where the State Courts have considered the proper way to enforce the proper use of these powers, the only Court left to consider such a question is this Court.
The final matters to he considered pertain to the Appellate Court's discretion to hear
new issues raised for the first time on a motion for Rehearing. PJW, contends, it can be
assumed that where the Appellate Court failed to order a rebreifing on newly presented issues raised on motion for rehearing 80 instead simply denied the motion, on it's face (See
App. G), that said Court did not fully, if at all, consider-these new issues on their merits-.
POW, concedes, that, generally, "the Sole purpose of a motion for rehearing is to prov-

11

Reasons Cont'd
ide the Court an opportunity to correct any errors on issues already presented."Wentworth
v. Meyer, 839 S.W.2d 766, 78 (Tex.1992) "& that, a motion for rehearing does not [On It's
Face] afford a party an opportunity to raise new issues" Pfifer v. Appraisal District, 45
S.W.3d 159, 66 (Tex.App.-Tyler 2000), however, the instant cause highlights an Appellant
not willing to simply sit around & wait, to allow his Appellate Counsel to totally deny him
the effective assistance he's Garuannted &., instead, emphasizes an Appellant doing his absolute Due Diligence in protecting his Right to a fair Appeal of convictions that simply should not be. Due Diligence enough to step up & to raise these matters even before his Appellate time limits expired. Due Diligence that was/is fully supported by the Law.
First, see Bonilla v. State, 933 S.W.2d 538 (App 1. Dist 1995), "Whether [A] new ground raised for [the] [First Time] on [Motion for Rehearing] is [A] decision left to the sound Discretion of [the] Court of Appeals.!' Therefore, it can no-longer be argued, "The Court pf Appeals [Has] Discretion whether to consider [New] matters raised in...[Motion for
Rehearing]" Perkins v. State, 905 S.W.2d 452 (App. 8 Dist 1995).
To reaffirm the foregoing, the Texas Court of Criminal Appeals has determined that, if
a party raises a new ground for the first time on a motionrfor rehearing, the decision to
consider the matter is, "left to the sound discretion of the Appellate Court." Rochell v.
State, 256 S.W.3d 315, 29-30 (2008 Tex.App.Lexis 4073). The Court further held that, "there are times when "as justice requires"c or "in the interests of justice" an Appellate Court
may consider a motion for rehearing to decide an issue not presented in the original briefs." Hughes v. State, 878 S.W.2d 142, 51 (TEX.CRIM.App 1990)(Citing Boyle v. State, 820
S.W.2d 122, 41 (Tex.Crim.App 1991).
Wherefore, PJW, asks, this Court; is it not [In The Interests of Justice] that an Appellant's Direct Appeal Right & his Right to the Effecftive Assistance of Appellate Counsel
be protected? Are r-- these not matters that should fall well within the considerations of
"In The Interests of Justice:ibid.

..,4
Wherefore, PJW presents each of the listed questions, with his reasons for this Court

12

Reasons Cont'd
to grant a full review of the issues presented herein.
Prayer
I pray this Court, Grants a full review of the issues presented herein.
I Pray this Court, if it orders briefing, also orders Counsel to be appointed to PM.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
()uttien J

Date.

ohlt7rre- Za

-Ant onin

I1

Thc,1 Ain 0 7,0q go S'€)

, loaf

13

Certificate of Grounds
I, Phillip J. Walter, TDC# 02099080, Certify's that the instant Motion for Rehearing,
Pursuant to S.Ct.R. 44(2), is restricted to the grounds specified in this paragraph. ibid.
Executed on this the 19th day of April, 2021.

Certificate of Service
I Phillip J. Walter, Certify's that a True & Correct copy of the Petitioner's Motion
for Rehearing was placed in the USPS, addressed to Clerk of the U.S. Supreme Court, at 1
First St, N.E., Washington, D.0 20543, with a copy of the same sent to District Attorney
Deel, Shane, at 100 W. 4th St, Ste 202, Baird, Tx 79504.
Phillip J. Walter
TDC# 02099080
Connally Unit
899 FM 632
Kenedy, Tx 78119
Sworn Decleration
I, Phillip J. Walter, TDC# 02099080, incarcerated at Connally Unit, at 899 FM 632,
Kenedy, Tx 78119, Declares, under penalty of Perjury, that, to the best of my knowledge,
the statements made in the foregoinf are True & Correct.
Executed on this the 19th day of April, 2021.
Phillip J. Wal

Date: 04/19/2021

Clerk of Court
1 First St, N.E.
Washington, D.C. 20543
Re: Phillip J. Walter v. State ❑f Texas
Cause: 20-6981

Dear Clerk:
Enclosed herewith, please find the Petitioner's Motion for Rehearing; in the above
styled-numbered cause. Please file thess papers in the Court's records & bring them to the
Court's attention. Further, please inform

me

as to the Cour't's decision in this matter.

Thank You for your assistance in;.this matter.
Sincerely,
Phillip J. Walter.
Petitioner Pro se.

CC: File,
> Shane Deel, District Attorney
100 W. 4th St, Ste 202
Baird, Tx 79504

